<html>
<title> - AN EXAMINATION OF THE VA OFFICE OF INSPECTOR GENERAL'S FINAL REPORT ON THE INAPPROPRIATE USE OF POSITION AND THE MISUSE OF THE RELOCATION PROGRAM AND INCENTIVES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


AN EXAMINATION OF THE VA OFFICE OF INSPECTOR GENERAL'S FINAL REPORT ON 
  THE INAPPROPRIATE USE OF POSITION AND THE MISUSE OF THE RELOCATION 
                         PROGRAM AND INCENTIVES

=======================================================================

                                 HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                      WEDNESDAY, OCTOBER 21, 2015

                               __________

                           Serial No. 114-38

                               __________

       Printed for the use of the Committee on Veterans' Affairs
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


         Available via the World Wide Web: http://www.fdsys.gov
         
         
                               ____________
                               
                               
                       U.S. GOVERNMENT PUBLISHING OFFICE
98-693                         WASHINGTON : 2016                       
                    
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bbdccbd4fbd8cec8cfd3ded7cb95d8d4d695">[email&#160;protected]</a>  
                    
                     
                     
                     
                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

DOUG LAMBORN, Colorado               CORRINE BROWN, Florida, Ranking 
GUS M. BILIRAKIS, Florida, Vice-         Minority Member
    Chairman                         MARK TAKANO, California
DAVID P. ROE, Tennessee              JULIA BROWNLEY, California
DAN BENISHEK, Michigan               DINA TITUS, Nevada
TIM HUELSKAMP, Kansas                RAUL RUIZ, California
MIKE COFFMAN, Colorado               ANN M. KUSTER, New Hampshire
BRAD R. WENSTRUP, Ohio               BETO O'ROURKE, Texas
JACKIE WALORSKI, Indiana             KATHLEEN RICE, New York
RALPH ABRAHAM, Louisiana             TIMOTHY J. WALZ, Minnesota
LEE ZELDIN, New York                 JERRY McNERNEY, California
RYAN COSTELLO, Pennsylvania
AMATA COLEMAN RADEWAGEN, 
    American Samoa
MIKE BOST, Illinois
                       Jon Towers, Staff Director
                Don Phillips, Democratic Staff Director

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.
                           
                           
                            C O N T E N T S

                              ----------                              

                      Wednesday, October 21, 2015

                                                                   Page

An Examination of the VA Office of Inspector General's Final 
  Report on the Inappropriate Use of Position and the Misuse of 
  the Relocation Program and Incentives..........................     1

                           OPENING STATEMENT

Jeff Miller, Chairman............................................     1

                               WITNESSES

Ms. Linda Halliday, Deputy Inspector General, Office of Inspector 
  General, U.S. Department of Veterans Affairs...................     3
    Prepared Statement...........................................    21
Mr. Danny Pummill, Principal Deputy Under Secretary for Benefits, 
    U.S. Department of Veterans Affair

        Accompanied by:

    Ms Diana Rubens, Director, Philadelphia and Wilmington Region 
        Office, VBA, U.S. Department of Veterans Affairs,
    Mr. Robert McKenrick, Director, Los Angeles Regional Office, 
        VBA, 
        U. S. Department of Veterans Affairs,
    Ms. Kimberly Graves, Director, St. Paul Regional Office, VBA, 
        U.S. 
        Department of Veterans Affairs

        And

    Mr. Antione Waller, Director, Baltimore Regional Office, VBA, 
        U.S. 
        Department of Veteran Affairs

 
AN EXAMINATION OF THE VA OFFICE OF INSPECTOR GENERAL'S FINAL REPORT ON 
  THE INAPPROPRIATE USE OF POSITION AND THE MISUSE OF THE RELOCATION 
                         PROGRAM AND INCENTIVES

                              ----------                              


                      Wednesday, October 21, 2015

              U.S. House of Representatives
                     Committee on Veterans' Affairs
                                                   Washington, D.C.
    The committee met, pursuant to other business, at 10:30 
a.m., in Room 334, Cannon House Office Building, Hon. Jeff 
Miller [chairman of the committee] presiding.

           OPENING STATEMENT OF CHAIRMAN JEFF MILLER

    Present:  Representatives Miller, Lamborn, Bilirakis, Roe, 
Benishek, Huelskamp, Coffman, Wenstrup, Walorski, Abraham, 
Zeldin, Costello, Radewagen, Bost, Brown, Takano, Brownley, 
Titus, Ruiz, Kuster, O'Rourke, Rice, McNerney, and Walz.
    The Chairman. I first want to recognize a guest in the 
audience. We have the National Commander Dale Barnett from 
Georgia with us today.
    Commander, thank you for your attendance and thank you for 
your service. We thank you all for what The American Legion 
does. And, Commander, thank you for your service and thank you 
for being here with us today.
    I think it is important for members to have an opportunity 
to listen to the IG and what they found in their report as well 
as the recommendations that they have made to the secretary.
    This report lays out pretty clearly the intent of two 
senior executives, Ms. Rubens and Ms. Graves, to move to 
Philadelphia and St. Paul respectively, and that they appear to 
have used their own positions of authority and their own 
relationships with the former under secretary to their 
advantage.
    Also according to the report, two subordinates, Mr. Waller 
and Mr. McKenrick, were then forced to move to positions they 
did not desire leaving their positions open for their 
superiors.
    The report concluded that not only did Ms. Rubens and Ms. 
Graves use their positions to inappropriately make these RO 
director positions available, they also manipulated the 
relocation system to spend hundreds of thousands of dollars to 
move to their respective locations.
    I want to make it clear that based on our reading of VA's 
policy prior to this IG report that the relocation program was 
available for all SES employees within the department, which by 
the way I believe is an abuse of taxpayer dollars. Regardless, 
I understand that since Ms. Rubens and Ms. Graves are both SES 
employees they are both eligible to receive this program under 
that policy.
    The report, however, makes it very clear that the IG 
believes they orchestrated the whole transfer for their own 
personal and financial gain. Last April we first discussed VA's 
relocation program, specifically Ms. Rubens' move, a move in 
which she received more than $288,000 in relocation expenses, 
and we requested the IG to look into allegations concerning 
financial benefits and preferences that may have been given.
    Until the IG report came out in September the department 
strongly supported Ms. Rubens' move and her role in her 
official capacity in Philadelphia. It was not until the report 
came out that VA decided to backpedal on this and concur with 
all of the IG's recommendations. As I said before, this report 
is damning and it deserves to be examined by this committee.
    We cannot the request the IG to do an investigation, a 
thorough one at that, and then once they are done refuse to do 
anything about it while we await actions on the department's 
behalf. That is why we are here this morning. This is our role 
as an oversight committee. We are not here to hold VA's hand 
and bend to their every request. That has happened far too 
often in the past under both parties and has contributed to the 
current situation that we are in. We are here to look at the 
facts before us and to fairly ask the right questions to ensure 
transparency between this committee, the department, and the 
American public.
    Although our other witnesses are not here today, we will 
hear from the VA Office of the Inspector General and I hope all 
members will take this opportunity to learn more about what is 
in the final report and the recommendations that have been made 
to the Secretary.
    The Chairman. Ms. Brown, do you have any comments before 
Ms. Halliday begins?
    Ms. Brown. Yes, sir.
    The Chairman. Ms. Brown, you are recognized.
    Ms. Brown. Thank you, Mr. Chairman, for holding this 
hearing. This morning we will be considering a report issued by 
the VA Inspector General on September 28th, 2015 regarding the 
inappropriate use of the position and misuse of reallocation 
programs and incentives. I am very concerned about the 
allegations contained in this report. I also believe that VA 
employees deserve to have a process that is fair and enable 
them to process necessarily to reach a fair conclusion. I have 
urged the Secretary to take suitable action after the VA has 
considered all of the evidence.
    The VA is still in the process of making a determination. I 
understand the sensitive nature of this decision and I want to 
stress again that I am not urging a certain action but rather 
that a suitable action be taken at the appropriate time. I know 
that all members of this committee realize the sensitive nature 
of this morning's hearing and the balance we are trying to take 
between the committee's important oversight duties and the VA's 
ongoing investigation of these matters.
    I look forward to the discussion of the VA IG's report on 
this matter. We know that the vast majority of all Veterans 
Benefits Administration employees, many of them veterans 
themselves, work hard everyday to provide veterans with the 
benefits they have earned. This is why the allegations and 
conclusions of this IG report is so troubling. We need to work 
together to ensure all Veterans employees, from senior leaders 
to front line employees, know that they will be rewarded for 
working hard and that any abuse of a position or authority will 
simply not be tolerated.
    So let us discuss the VA IG reports. We are also waiting 
the VA determination regarding the issue raised in this report 
and the results of the VA review of incentive and relocation 
processes. This is the area where the committee has a direct 
oversight interest in to make sure that relocation incentives 
are used properly.
    Thank you, Mr. Chairman, and I yield back the balance of my 
time.
    The Chairman. Thank you very much, Ms. Brown. Thank you 
again members for being here. With us this morning is Ms. Linda 
Halliday, Deputy Inspector General, if you would, Ms. Halliday, 
please come up, with the VA Office of the Inspector General. We 
have heard her testimony on other issues in the past. We 
appreciate you being here today. And you are recognized for 
five minutes for your opening statement. Thank you very much.

                STATEMENT OF MS. LINDA HALLIDAY

    Ms. Halliday. Thank you. Mr. Chairman and members of the 
committee, thank you for the opportunity to discuss the results 
of the OIG's recently published report on the use of the 
relocation program and incentives within VBA. The report 
detailed results of our administrative investigation of 
allegations that VBA senior executives inappropriately used 
their position for personal and financial benefit and that VBA 
misused the VA relocation program for the benefit of its senior 
executive service workforce.
    Our statements and comments will be limited in order to 
preclude any allegation that our testimony unduly influenced VA 
or the Department of Justice regarding potential administrative 
or criminal action.
    I am accompanied by Mr. Nick Dahl, the Director of the 
OIG's Bedford Office of Audits and Evaluations; and Ms. Linda 
Fournier, Director of the OIG's Administrative Investigation 
Office.
    In March this committee and the Senate Veterans' Affairs 
Committee requested we review allegations concerning the 
relocation of a VBA headquarters senior executive to the 
position of the Philadelphia VARO Director. The allegation 
included questions about the relocation package and the 
retention of salary, even though the VARO Director position had 
decreased responsibilities. We were also asked to conduct a 
broader review of VA's permanent change of station, or PCS, 
relocation expense program.
    I would first like to share some background information. 
The federal travel regulation states that an employee 
transferring in the interest of government from one agency or 
duty station to another for permanent duty that is located at 
least 50 miles from their duty station is eligible for 
relocation expense allowance. Examples of the relocation 
expenses include transportation, shipment and storage of 
household goods, real estate expenses. Employees can also be 
eligible for temporary quarters, subsistence expense, which 
would include temporary lodging, meals and tips, dry cleaning 
expenses.
    Federal agencies can offer employees assistance through the 
appraised value offer program, known as AVO, which is designed 
to help employees sell their primary residence. The program 
operates as follows: while the employee's property is for sale 
two separate appraisals are conducted to estimate the value of 
the home. The average of the two appraisals serves as a backup 
offer for instances when the employee does not sell their home 
in a timely manner. If the home does not sell after being on 
the market 60 days the employee may accept the AVO. In these 
instances a contractor buys the property from the employee for 
the average appraised value. Each VA administration defines 
which employees are authorized to participate in the AVO. The 
then Under Secretary for Benefits told us that all VBA SES 
employees were offered AVO benefits when making a PCS move. If 
the employee accepts the AVO, VA pays a contractor a home sale 
acquisition fee. In fiscal year 2014 this fee was 27.5 percent 
of the AVO.
    One last piece of background information pertains to VA's 
SES pay structure. In 2004 VA established a pay band structure 
for SES pay. In 2014 VA's SES salaries ranged from 
approximately $120,000 to $181,000. VA categorized their SES 
positions into three different pay bands based on the scope of 
responsibility for each position, with pay band one 
representing the highest level of complexity and pay band three 
representing the lowest.
    The position of Deputy Under Secretary for Field Operations 
is a VA central office based SES pay band one position located 
in Washington, DC. The position is responsible for the 
oversight of four area offices and 56 VAROs within VBA. The 
Director of the Philadelphia and Wilmington VAROs is an SES pay 
band three position and involves significantly less 
responsibilities than the Deputy Under Secretary for Field 
Operations.
    VA paid a total of about $274,000 related to the move of 
the Deputy Under Secretary for Field Operations to move from 
the Washington, DC., area to the Philadelphia area. The 
payments included about $33,000 paid to Ms. Rubens, who held 
that position, primarily to reimburse her for lodging, meals, 
tips, and dry cleaning expenses. Payments to other entities 
totaled approximately $241,000 and included about $212,000 to 
the home sale contractor, $16,000 to the company that moved and 
stored Ms. Rubens' goods, and about $13,000 in service fees 
that went to VA's Financial Service Center and the VA 
Technology Acquisition Center.
    Ms. Rubens did retain her pay despite the decrease in job 
responsibilities. But according to the federal regulations, the 
SES rate of basic pay for a career senior executive may only be 
reduced if the senior executive has less than a fully 
successful annual summary rating or has failed to meet the 
performance requirements of a critical element. From fiscal 
year 2009 to the time of her reassignment the Deputy Under 
Secretary for Field Operations was rated better than fully 
successful on all performance appraisals. Therefore we 
concluded that all critical elements were met. Based on 
applicable federal regulations we determined VA could not 
reduce the annual salary upon reassignment despite the decrease 
in the scope of responsibilities.
    We also conducted a limited assessment of VBA's use of the 
PCS relocation program. We determined VBA's reassignments of 
seven general schedule GS-15 employees who were promoted to 
SES, and another 15 SES employees who were moved to different 
SES positions. We determined that VBA management used 
reassignments through the PCS program as a way to increase SES 
pay.
    It is important to note from fiscal year 2010 to 2013 the 
U.S. Office of Personnel Management guidelines precluded all 
SES employees from receiving annual pay increases. Further, in 
2012 the then VA Secretary determined no VBA executive would 
receive performance awards based on concerns over excessive 
backlog of veterans disability claims.
    Twenty-one of 23 reassignments included salary increases. 
These VBA reassignments resulted in annual salary increases 
totaling about $321,000, which averaged about $15,300 per 
individual. We identified concerns with the salary increases 
because they did not seem to consistently reflect changes in 
the position's scope of responsibility.
    We also found VBA paid seven employees relocation 
incentives when they moved to new positions. The seven 
relocation incentives totaled $140,000. We determined that VBA 
did not properly justify these incentives. Five relocation 
expenses were not justified because job vacancies were not 
announced, or the positions were filled before candidates who 
applied were considered. The two other incentives were not 
timely justified as justifications were signed months after the 
job announcements were posted. The then Under Secretary for 
Benefits and the then VA Chief of Staff approved the VBA's 
relocation incentive justification and payments.
    VBA paid relocation expenses for 20 of the 23 
reassignments, which included AVO related expenses for 11 of 
the moves. Specifically VBA spent about $1.3 million on 
relocation expenses for these moves. While these reassignments 
resulted in significant cost to VA, these expenses were 
allowable under the federal relocation program. VBA also spent 
a total of $1.8 million for the 23 reassignments we reviewed. 
While we did not question the need to reassign some staff to 
manage a national network of VAROs, we concluded VBA 
inappropriately used VA's PCS relocation program for the 
benefit of its SES workforce.
    In conclusion our findings demonstrate the need to 
strengthen controls and oversight in order to improve financial 
stewardship in the program and we are pleased to see the 
department is reviewing the evidence and taking this report 
seriously. But at this point I do not have specifics as to how 
they are going to implement the 12 recommendations. They did 
give me implementation dates that spanned October 31 through 
December 31 and I expect more detail at that time.
    This concludes my statement and I will answer any 
questions.

    [The prepared statement of Linda Halliday appears in the 
Appendix]

    The Chairman. Thank you very much. All of my questions this 
morning for the IG are based on the evidence used to complete 
their report. Ms. Halliday, at the hearing on April 22nd Mr. 
Pummel testified that the AVO program was necessary to fill the 
Philadelphia RO position because it was, quote, tough to fill. 
In your opinion was the AVO used in Ms. Rubens' case because it 
was tough to fill?
    Ms. Halliday. No. I believe that the Philadelphia VARO 
offered significant management challenges to whoever took over 
the leadership. But you have to advertise positions and there 
were candidates. I think our report says there were 
approximately 120, but do not quote me on the number.
    The Chairman. At the April--did you find it?
    Ms. Halliday. No, I have the Philadelphia one.
    The Chairman. That is all right. At the April 22nd hearing 
Ms. Rubens testified that the AVO program was, quote, part of a 
benefit program that VA offers to ensure transition in as quick 
and as smooth as possible to an office that needed leadership 
changes, end quote. Based on your investigation is this the 
reasoning that VA used the AVO program in Ms. Rubens' case? And 
if not, what was their reasoning?
    Ms. Halliday. I believe the reason went to Ms. Rubens 
saying that she would not execute the move without the AVO. 
Originally she agreed, she volunteered for the position and 
agreed to take it. And then a few days later she said she would 
not take the position without the AVO benefit. And that was 
pushed through and approved by I believe the VA Chief of 
Staff----
    The Chairman. Should that document have been signed prior 
to accepting the position?
    Ms. Halliday. You would hope so.
    The Chairman. In your opinion did Ms. Rubens and Ms. Graves 
use their positions of authority to move Mr. Waller and Mr. 
McKenrick for their own personal and financial gains?
    Ms. Halliday. We concluded that in our report.
    The Chairman. Were Mr. Waller and Mr. McKenrick essentially 
forced to move to Baltimore and to Los Angeles respectively?
    Ms. Halliday. There are different facts that go into each 
move. We did, we interviewed those individuals. We believe we 
got sufficient information, feedback from them, that they felt 
that they were pushed to take those moves.
    The Chairman. Did Ms. Rubens indicate to the IG that Mr. 
McKenrick reached out to her to volunteer his name for the Los 
Angeles position?
    Ms. Halliday. I believe Ms. Rubens said that her and Mr. 
McKenrick spoke and he mentioned he had interest in the LA 
position. But this was right on the heels of being part of the 
review panel tasked to fill the vacancy. And when we spoke with 
Mr. McKenrick he flat out said he did not want to go to Los 
Angeles. He was given only a week to effect the move and that 
it put him further away from his children.
    The Chairman. What were your conclusions about the role 
that the current Deputy Under Secretary for Field Operations, 
Ms. McCoy, played in moving Mr. Waller out of St. Paul so that 
Ms. Graves could take that position?
    Ms. Halliday. I think the actions were inappropriate.
    The Chairman. According to the report you have made a 
criminal referral of evidence from this investigation to the 
U.S. Attorney for the District of Columbia for possible 
criminal charges. Can you tell us what led you to take this 
action and what update you may have received from the District 
Attorney's Office if they will pursue the case?
    Ms. Halliday. What led us to making this referral was 
because it was a misuse of position that cost the federal 
government almost half a million dollars when you look at the 
two, both Ms. Rubens' and Ms. Graves', actions. That seemed to 
be sufficiently high enough, and to look like there was 
manipulation in the email information that we received that 
they pushed the two individuals out. I have no information as 
of this point from the referral for Department of Justice other 
than they are evaluating the evidence.
    The Chairman. Ms. Brown.
    Ms. Brown. Thank you. The report tells us that the VA could 
pay as much as $280,000 in relocation expenses to move Ms. 
Rubens from VA's central office in Washington, DC., to 
Philadelphia. Once all PCS claims are processed, why did it 
cost so much to move Ms. Rubens from Philadelphia, since it is 
so close? Can you give us a break down of the cost? 
Specifically, who received what and did you find anything 
improper about the amount of reimbursements? Basically, did Ms. 
Rubens make any money on the move?
    Ms. Halliday. Okay. For the amount of money that we 
identified, the $274,000, Ms. Rubens only received 
approximately $33,261. And she is paid for temporary lodging, 
her real estate expenses, travel costs en route, and 
miscellaneous expenses associated with the move. Our general 
consensus is that the majority of those expenses were allowable 
under the federal travel regulations and there really was not a 
problem with the reimbursement. We did find two expenses, one 
for alcohol and one lacking receipts. I considered them 
somewhat de minimis but they are unallowable. And you know, you 
have to justify that. Federal travel regulations are what they 
are.
    The next big amount that everyone should be aware of is 
there was an amount paid to Brookfield and it is for the 2014 
home sale fee. And that is the 27.5 percent of the average 
appraised value of the $770,000 for her house. That does not go 
to Ms. Rubens, that goes to a contractor that is under a GSA 
contract, not a VA contract.
    Ms. Brown. On that point, on that very point, that is my 
concern. Because General Service, as I mentioned before and I 
mentioned it to you when you were here before, this is a 
government wide program. All of the agencies operate under this 
program. Now as of October 1, 2015, the VA will not longer 
offer this program to the VA employees. This raises the larger 
issue as to whether this program is being administered properly 
across the government, not just VA. I am concerned that the 
program as well, if it is not working for the VA, are they 
administering something wrong? Or is it a problem across the 
board?
    You indicated you only could speak to VA. I am writing a 
letter to the GAO and asking them to give us an update as to 
how this program is working government wide. Because I think it 
is unfair if all of the other agencies are administering this 
program and it is working, and the VA employees are going to be 
left out. And we are talking about top level. But this program 
is available for all VA in the program that are moving and this 
is allowed for them. How is this going to affect the VA 
employees?
    Ms. Halliday. First, I think your actions to ask GAO are 
very appropriate. I think you should look at this. There is a 
substantial amount of money in the AVO, the percentages paid 
for these home acquisitions. And depending on the competitive 
market that has rising prices versus dropping, sometimes it is 
a benefit, sometimes it is not.
    As far as VA deciding not to participate in the AVO 
program, I believe that is their choice. They have a couple of 
choices, not to participate or to put appropriate levels of 
controls in place so the type of activities that we described 
in our report do not continue to happen. My understanding is 
that they are looking at other recruiting tools that might be 
more appropriate but I do not have information on that at this 
time. As I said earlier, I am expecting more detail from VA. I 
do not necessarily think that the AVO program is the only 
program that could be effective here. But at this time I think 
that it is important to have some recruiting tools to get the 
best of the best to the positions they need to be in.
    Ms. Brown. Thank you. I yield back.
    The Chairman. Mr. Lamborn, you are recognized for five 
minutes.
    Mr. Lamborn. Thank you, Mr. Chairman. I appreciate your 
leadership and the ranking member's leadership and questions. 
We really need to get to the bottom of this and I think there 
have been some excellent questions so I will just build on what 
has already been asked. And thank you for the work that you 
did.
    To follow on what Ranking Member Brown just asked you, it 
looks to me like there is some abuse going on. Was this unique 
to the VA or a subset within VA? Or is this potential out there 
for the entire government, and maybe there is abuse in other 
departments?
    Ms. Halliday. I would think the potential exists and that 
each department, it would be dependent upon whether they had 
adequate controls in place to process all of the requests and 
authorizations made under the program. As far as what 
percentage they may pay for a company to pick up the home sale, 
this is in the contract. GSA puts the terms of those contracts 
and all federal agencies rely on it.
    Mr. Lamborn. So at a minimum you would urge us to look at 
requiring the VA to rewrite its regulations in this area? And 
at a maximum take this to the rest of the government, maybe go 
to the OGR committee for instance?
    Ms. Halliday. I would think it should be looked at 
government wide. I would also say that I believe VA is 
rewriting it.
    Mr. Lamborn. Now that is the AVO program. Also I think it 
does not make sense that if someone volunteers for a lower 
position, that is a lower responsibility position, they keep 
the same high salary. Now this is not maybe going to happen 
everyday. But what would keep someone from sort of checking out 
and really kind of abdicating their responsibilities, taking a 
really low responsibility job? I mean, in this case it was 
$15,000. Normally it would be the lesser salary, but way, way 
less. I mean, is there, what kind of potential is there for 
abuse here?
    Ms. Halliday. I think there is a lot of potential. But it 
would not be abuse at this point, since that is allowable under 
OPM regulations. I definitely think it should be looked at. 
When you look at the private sector, your pay is commensurate 
with your responsibilities. I see no reason why it would 
change.
    Mr. Lamborn. And once again, is this unique to the VA? Or 
is it government wide?
    Ms. Halliday. No, government wide, sir.
    Mr. Lamborn. Okay. And do you have any evidence that other 
departments have seen this happen? Maybe that never hit the 
news?
    Ms. Halliday. I have no evidence to that. My scope of 
responsibility stays within the VA.
    Mr. Lamborn. Okay. And then a real specific question on the 
facts right in front of us that led to this whole hearing 
today. Let me see, where did I have it? Okay. In your report 
you found that in March, 2014 Ms. Rubens requested a market 
analysis of her DC., area home from the VA's AVO contractor, 
Brookfield. Did the evidence gathered give you any indication 
as to why she requested this analysis when she did?
    Ms. Halliday. I would have to take that for the record. I 
am not sure.
    Mr. Lamborn. Okay. If you could, please. And with that, Mr. 
Chairman, I yield back the balance of my time.
    The Chairman. Thank you. Mr. Takano, you are recognized for 
five minutes.
    Mr. Takano. Thank you, Mr. Chairman. Following on Mr. 
Lamborn's questioning, your report states that according to Mr. 
Pummel, quote, the VA Chief of Staff at the time said that an 
SES employee's salary could be increased as long as the 
executive was moving to a different location, end quote, 
despite OPM guidelines preventing SES employees from annual pay 
increases and establishing a salary cap. Was the VA Chief of 
Staff correct? I understand that for many other transfers you 
examined, employee responsibility decreased, which was not 
reflected in their salaries. And it is essentially a similar 
question that Mr. Lamborn asked. So was the Chief of Staff's 
statement correct?
    Ms. Halliday. Partially.
    Mr. Takano. Okay.
    Ms. Halliday. I think there was too broad of an 
interpretation applied here. I do not think, I think if they 
asked the Chief of Staff again can the salary increase if the 
responsibilities of the position drop substantially, the answer 
would be different.
    Mr. Takano. Okay. I would like to know if under current OPM 
policy SES employees are allowed a pay increase when being 
transferred?
    Ms. Halliday. Yes, if they go to a different position.
    Mr. Takano. They go to a different position and it is more 
responsibilities.
    Ms. Halliday. Yes.
    Mr. Takano. All right. Well how can the VA ensure that when 
employees transfer into a position with less responsibility, 
their new salary reflects that decreased responsibility? Is it 
through the rewrite of regulations? Or----
    Ms. Halliday. I believe that that has to be addressed with 
the Office of Personnel Management, who set up the guiding 
rules for pay setting for SES.
    Mr. Takano. So that must be systemic. It has to be beyond 
just the VA. It has to be a systemic policy determined by the 
Office of Personnel Management. Well----
    Ms. Halliday. VA may have more executives that transfer 
because it is in such a large decentralized environment, and 
there are many openings across the nation, where maybe some 
other federal agencies are more headquarters based. So we have 
a lot of that in the VA.
    Mr. Takano. The PCS and AVO programs were created for a 
reason, to help ensure that the federal government is able to 
get the right people into the right jobs and to fill vacancies, 
particularly in high level positions. I know that the VHA in 
particular has had a tough time filling vacancies. Do you know 
if VBA faces a similar problem as the VHA?
    Ms. Halliday. From my understanding, but I do not have 
empirical evidence, VBA does face the same problem in filling 
the vacancies across its 56 VAROs.
    Mr. Takano. You already answered that there was not, in the 
particular example in Philadelphia, that there was not a 
shortage of candidates. You had 120 candidates. But I want to 
ask a more general, is there, might that be an exception? Are 
there, is there a shortage of suitable candidates for high 
level positions at VBA? Or you are not able to really answer 
that question?
    Ms. Halliday. I would not have the evidence on that. I 
looked at two positions, what was advertised for Los Angeles, 
what was advertised for Baltimore here.
    Mr. Takano. Okay. My last question was does the VBA have 
trouble recruiting talent? And that is probably something----
    Ms. Halliday. That is something for the department to 
answer.
    Mr. Takano. Okay, thank you. I yield back, Mr. Chairman.
    The Chairman. Thank you very much. A quick question, was 
the Philadelphia RO position ever advertised?
    Ms. Halliday. Yes, it was. No, I am sorry. It was not. It 
was not. I am getting Baltimore and LA confused.
    The Chairman. I appreciate it.
    Ms. Halliday. But Philadelphia was not.
    The Chairman. So the position where Ms. Rubens went was not 
advertised. Thank you. Dr. Roe.
    Dr. Roe. I thank the chairman. I am going to bring us down 
to, Ms. Halliday, thank you again for being here and providing 
this information for us. One of the things I think you see 
across the country is a loss in faith of government, and I 
think this is a poster child for it. You have a situation where 
we have our social security recipients are getting no increase 
this year at all. I am going to tell you about a couple of guys 
I know back home.
    One is Bud Pate. He is a retired Baptist preacher, a 
Marine, lost his arm in Vietnam. Randy Kingston, both of these 
guys are friends of mine. Randy is a paraplegic, a young man, 
had not married, became a paraplegic after, in Vietnam during 
an explosion, a battle. And this young woman married him, who 
knew him ahead of time, knew him when he was whole, but married 
him, has been faithful together all these years. And these 
veterans that we see out there are having to struggle to get 
their benefits of a few hundred dollars or a few thousand 
dollars a month. And then I see things where we are paying 
somebody $33,000 to drive up the road 140 miles and live in a 
hotel for a few days until they can get a house. If you paid 55 
cents a mile that is a $77 trip, not a $33,000 trip. And if you 
eat at the Four Seasons every night, I do not see how you can 
spend $33,000. And that is not what average people do out 
there.
    When average people like me, that go out and work for 
themselves for 30-something years, and I do less, next year I 
get paid less. That is what happens in the real world. And that 
is not what is happening here. And I go home and see these 
injured and disabled veterans. And then I come up here and hear 
where these senior officials, it seems like they have 
manipulated a system that they know how it works to, the VA has 
shifted people around. When we said, no, you cannot raise 
people's salaries during this particular time so we can sort 
all this out, but they figured out how to do it. And that sort 
of cynicism is really pervasive, I think, when you go home and 
try to explain.
    And listening to your testimony, which has been extremely 
compelling to me, I just want to get that on the record. And I 
think we have a lost trust. And so I understand this program, 
two people come in and appraise your house. I looked up, while 
we are doing this, on the web. The average time is about 60 
days on the market around here for a home. If I sell my home 
here, a private citizen does, they just got to wait until they 
sell their home. If it is 60 days or if it is 160 days. They 
have got to wait, just like you probably do if you sell your 
house here. So the way I understand it is this program they 
have got is you go out and get your house evaluated at 
$800,000, or whatever it is, you pay this, basically this 
contractor, 27.5 percent, that is $200,000-something that they 
got. They can discount that house $100,000 and sell it quickly 
and make $125,000 without blinking an eye. I mean, am I correct 
on that? Is that how they do it?
    Ms. Halliday. That could happen, yes.
    Dr. Roe. We need to look at that because----
    Ms. Halliday. That is a GSA contract.
    Dr. Roe. Yes. I think the one expense in this that I saw 
that looked pretty reasonable was the poor guy that sent his 
people down and moved all the furniture. I think that is a 
fairly reasonable $16,000 to pack up a big home like that and 
move it, I think was reasonable. These other things look to me, 
many of them, look to be over the top. And I simply say that 
because of the people that I go back home and see every single 
week when I go home. And veterans that cannot get in to the 
Phoenix VA right now or get the care they need, and they see 
this. I think this is very telling to me.
    Anything else in the report that we have not talked about? 
I think we have pretty well seen what it is, is it looks like 
that this position was a position that Ms. Rubens wanted to go 
to and essentially worked her way around in the system, knew 
how the system worked, and was able to obtain that system. Am I 
correct in that?
    Ms. Halliday. That is our general conclusion.
    Dr. Roe. Is the conclusion. That is what I thought. Mr. 
Chairman, I yield back.
    Ms. Halliday. Thank you, doctor. Ms. Brownley, you are 
recognized for five minutes.
    Ms. Brownley. Thank you, Mr. Chairman. And thank you, Ms. 
Halliday, for your report this morning. According to table 
seven on page 30 of your report, the incoming Los Angeles 
Regional Office Director received a relocation incentive of 
$20,000. As I understand it, relocation incentives are only 
supposed to be paid in cases where qualified applicants cannot 
be found or the position is hard to fill. However, and your 
report states that 168 applicants, five of whom were considered 
best qualified, had applied for the Los Angeles position. So 
according to the VBA policy should a relocation incentive have 
been offered in this case?
    Ms. Halliday. Since there was not a final conclusion to 
whether those five individuals that were considered best 
qualified could actually fit there, I would have to say, agree 
with you that that relocation should not have been paid.
    Ms. Brownley. Thank you. And then one other question is 
when an SES employee is offered a reassignment, what are their 
rights to refuse that reassignment? And what is the process to 
discuss the reassignment with the VBA leadership?
    Ms. Halliday. Generally the position should be advertised. 
The individual should apply and be considered in the pool of 
competitive candidates. There are occasions when there is a 
discussion that someone would like to go to another spot and 
knows that it is open. I think at that point you can have a 
discussion, you can identify your interests. But if you have a 
specific interest, we in the IG if someone raises that we do 
not pay moving expenses. We do not pay the expenses associated 
to, you know, for the travel there. We say, okay, you can go to 
that position but that is at your choice. That is not at the 
government need. I think once the government need comes in, and 
in this case what happens, and I am not sure if I am going to 
give you all the detail on this and I will add anything for the 
written record. But it is called a management directed move. I 
do not want to go the position but then you have to go. When 
you do a management directed move the government then agrees to 
pay the expenses.
    Ms. Brownley. So there are, I mean, in some sense if that 
was that strategy or protocol is implemented then there are no 
rights of the employee to refuse a reassignment?
    Ms. Halliday. In a management directed move, once they pay, 
a person really feels that they are at risk of losing their job 
if they do not accept it. That is almost the last thing you can 
do.
    Ms. Brownley. Thank you. I yield back.
    The Chairman. Is it safe to assume that one of the easiest 
ways to be fired at the VA is to refuse to move with a 
management directed move? You do not have to answer. Thank you.
    Ms. Halliday. Thank you.
    The Chairman. Dr. Benishek, you are recognized for five 
minutes.
    Mr. Benishek. Thank you, Mr. Chairman. Thank you, Ms. 
Halliday, for being here today. Can you elaborate? Is there any 
role that Ms. Hickey had in any of this that you are aware of? 
Was she, was there communication between her and Ms. Rubens?
    Ms. Halliday. I believe there was communications between 
Ms. Rubens and Ms. Hickey when Ms. Rubens said I am interested 
in the position. And General Hickey had said that she will do 
anything she can to help that, you know, make that happen. Like 
it is noted in the report there. The other role that was played 
is as the approvals for the transfer in position go up, she has 
to sign that, it then moves on to the VA Chief of Staff. So 
there is a documentation trail on the approval and the approval 
of the AVOs, things like that.
    Mr. Benishek. I think you recommended that the Secretary 
try to recoup the $300,000 that was given to Ms. Rubens. Could 
you elaborate on that recommendation a bit more?
    Ms. Halliday. That is recommendation number nine. And what 
we did was it was the OIG's position, because there was, we 
believed there was manipulation to get that vacancy open so 
that individual could take that spot, that the government had 
lost $274,000 because it paid that amount. General Counsel will 
have to go in and weigh the logistics, VA General Counsel, as 
to how much of that is recoverable. That decision, I do not 
know what is going to happen yet.
    Mr. Benishek. Recoverable? What does that mean? I mean is--
--
    Ms. Halliday. That someone would have to pay that back.
    Mr. Benishek. Right. But I mean if that is truly the case, 
that this position was not a management mandated, should not 
all of it be recoverable?
    Ms. Halliday. That is why we put the $274,000 in there. But 
it is clearly going to be out of our hands at this point.
    Mr. Benishek. Right. Right. No, I understand. I understand. 
Can you tell me a little bit more about as I understand it the 
VA has their own home loan program that sells thousands of 
homes a year for less than this 27.5 percent service fee. Are 
you familiar with any of that? Or----
    Ms. Halliday. Are you talking the ones for veterans?
    Mr. Benishek. Yes. Is that----
    Ms. Halliday. That is clearly different than this is.
    Mr. Benishek. That is different. Okay.
    Ms. Halliday. This is what the federal government has put 
in place to move senior executives around to fill key 
vacancies.
    Mr. Benishek. All right.
    Ms. Halliday. So I could not mix the two. One is an 
entitlement program and this is administrative.
    Mr. Benishek. But this Brookfield, that is a contract with 
the General Services Administration? That is a general 
government wide type?
    Ms. Halliday. Yes. My understanding it is on the federal 
supply schedule. It is a contract that is awarded by GSA and 
then used by the federal agencies that participate in the 
program.
    Mr. Benishek. Do you happen to know how many transactions 
occur, either within the VA or the government as a whole that 
use this service a year?
    Ms. Halliday. I do not have that information. That would 
probably be vested in GSA.
    Mr. Benishek. All right. I think that is all I have for you 
now. Thank you, Mr. Chairman. I will yield back the remainder 
of my time.
    The Chairman. Ms. Titus, you are recognized for five 
minutes.
    Ms. Titus. Thank you, Mr. Chairman. Ms. Halliday, thank 
you. My understanding about the report is that it is limited to 
SES employees but it includes a few GS employees who, 15 who 
were moving up. And this is damning enough. But I am concerned 
that this practice of moving people into jobs with less 
responsibility but the same amount of money is occurring at 
other levels as well. And I will just give you an example.
    Ed Russell, who was previously the Director of the Reno 
Regional Office for VBA, which was one of the worst in the 
country, was put on paid leave. He stayed on that 
administrative leave for almost a year. Then they could not, or 
would not, get rid of him, so a brand new position was created 
in Washington. They called him a senior advisor in the Office 
of Field Operations, but he teleworked from Reno. He did not 
even move back to Washington. Now I cannot find out for sure 
what his salary was, but I doubt if it went down. Now the 
responsibility that he had as senior advisor while teleworking 
from Reno had to have been less than being the Director of the 
Regional Office. So I am concerned that as VA pushes this 
initiative called My VA if it is full of just patronage and 
cronyism, that is totally contrary to the image that it is 
trying to create and its efforts to restore faith in VA. And I 
wonder if you have any sense that this is more widespread than 
just the Reno office? Or if you would be willing to look into 
it if that would be appropriate or even possible?
    Ms. Halliday. I do not have any evidence as to whether it 
is widespread. The view focused on these, the VBA moves. With a 
congressional request we would look into it.
    Ms. Titus. And would that, it would be something that you 
could do, though, right?
    Ms. Halliday. We could.
    Ms. Titus. If we requested it? Thank you very much. I yield 
back.
    The Chairman. Ms. Walorski, you are recognized for five 
minutes.
    Ms. Walorski. Thank you, Mr. Chairman. And thank you, Ms. 
Halliday, for being here yet again.
    I guess I am, I would call this report, this IG report a 
crisis in confidence again with the VA and with some of these 
senior level executives. And I guess I echo back to what 
Representative Roe said. The discrepancy that is happening in 
this country between these high level VA executives and the 
veterans that are in the districts that we all sit in here and 
represent today, to me it is reprehensible. And we are looking 
at yet another crisis in confidence.
    I have been here, I am only in my third year. I am one of 
the youngest members on this panel. You have been here since I 
have been here. When you look at yet another, yet another one 
of these examples of egregious spending, benefits that people 
in the private sector do not even have, people in my district 
cannot even relate to these issues of paying people to move, at 
the exorbitant amount of money. Do you look at this at any 
point, as the Inspector General, and say there is an issue with 
confidence here with these senior executives?
    And I guess to my other colleagues' point, you know whether 
this is nationwide or not, I would have to suspect based on 
just the data that we have seen in the three years we have been 
here, this is just the same old, same old, status quo behavior. 
There has not been a whole lot of shake down when it comes to 
what kind of federal benefits are given to these senior 
executives in the VA. Do you see a confidence issue here as you 
look at these, at the tangible data that you have?
    Ms. Halliday. I think every time the IG identifies a 
situation where they question the cost, the necessity of those 
costs, or the validity of those costs, it erodes the trust of 
veterans.
    Ms. Walorski. I agree. And I can tell you that my office 
number still rings every single day in Indiana's Second 
District with veterans that need help. They need our help in 
mitigating a system and bringing down the mountains of 
bureaucracy just so they can access the basic services that 
they were promised by this government when they signed up to go 
fight for freedom. And I think that it is just another 
egregious example that I look at this as a huge crisis in 
confidence yet again. That we feel like we have taken a couple 
of steps forward and we go backward when we look at egregious 
spending. And that is where the Americans do disconnect. That 
is where our veterans simply cannot trust this government. And 
I think that it is an atrocity that as we continue to dig deep, 
further in the weeds on this issue that we have got to hold 
additional people accountable and make sure that the actions of 
the senior executives of the VA are absolutely transparent to 
the American public. And so we have a long road ahead and I 
yield back my time, Mr. Chairman, thank you.
    The Chairman. Thank you very much. Mr. Walz, you are 
recognized for five minutes.
    Mr. Walz. Thank you, Mr. Chairman. Commander Barnett, I 
would like to thank you for being here and let you know your 
team here in Washington is doing a fabulous job. And we 
certainly appreciate it. And my 2016 dues are on the way, so 
that email you sent. So you do a good job of reminding me, so 
we will get them.
    But Ms. Halliday, nice to see you again as always. And I 
appreciate your time. And I want to thank the chairman and the 
ranking member for I think once again elevating this committee 
above the partisan politics, for bringing it to the point of 
trying to improve the care for veterans.
    I also think it is noted that together we are doing what we 
are supposed to do. Reports are being done. We are doing our 
oversight. Changes are being made. An Under Secretary is no 
longer an Under Secretary. And I certainly cannot say if it was 
in direct result of this, but I think people can draw their 
conclusions. I also would say that Deputy Secretary Gibson's 
willingness to come here at every case, and his volunteering to 
come here, and I think the chairman was very clear and 
sufficiently stated why that was probably not the right case 
here because he has got a job to do. And I am grateful that I 
think my colleagues here have both, did the accountability 
piece, the subpoenas were correct, we have created space, we 
let Deputy Secretary Gibson do his work, and we will have some 
answers by November 2nd.
    So I kind of want to, this is taking care of it. There are 
some good questions being brought up. The ranking member 
brought up a great point about across the board on this issue, 
which I think is very important to look at. I want to ask more 
specifically about the role of the IG and this committee 
stepping up to do its oversight responsibility.
    I do think it should be noted we are approaching 700 days 
without someone in the top job at the VA Inspector General. 
That in itself is inexplicable to me. With that being said, the 
broader issue of the IG, the IG's role and this committee's 
role of getting aggressive to do what we are doing today, and I 
am proud of that, I want to ask a couple of specifics on this. 
How many investigations has your office conducted on personnel 
issues at VBA? That is an off the--to get back to us? Or----
    Ms. Halliday. I would have to get back to you on the record 
on that.
    Mr. Walz. Would you know in a general trend has it 
increased or decreased? Again maybe----
    Ms. Halliday. I think my division for my administrative 
investigations is inundated with work.
    Mr. Walz. Okay. Because I think this is an important one 
for us and I would ask my colleagues on this. I have been an 
unabashed supporter of the VA and the role, and you and I 
talked about some of these where it goes back to the VISN to do 
some of them because you have to triage those.
    Ms. Halliday. Right.
    Mr. Walz. You had I think some very strong vision, the next 
Inspector General that comes in, that you work with them. I 
kind of want to know, for you to help me understand this, how 
does it work when you complete a report? Because I think the 
public is starting to see, and one of the questions we are 
asking, is what do we do with this and how do we implement 
change? So what happens when you send a report over to the VA?
    Ms. Halliday. Okay. That is a good question. I will send 
the report over to the VA. The recommendations in this 
particular report were directed to the Deputy Secretary because 
everyone else in the chain of command was involved at some 
level of the decision making and the actions that occurred. The 
department gets a specific period of time to review the 
recommendations.
    Mr. Walz. Who reviews that?
    Ms. Halliday. Well that would be the choice, I sent it to 
the Deputy Secretary. He could task whoever he wants to review 
the details of the report. You know, he might have General 
Counsel involved----
    Mr. Walz. Does the evidence file go with it?
    Ms. Halliday. We do send evidence over. We did. We sent the 
evidence over and I know General Counsel and the Office of 
Accountability Review were involved in looking at the evidence.
    Mr. Walz. And you and I talked about then and on that is 
that how you go about committing to implementing your 
recommendations. That is kind of our role, is that correct? Is 
that what you see? I see this as where the disconnect is. You 
do the investigation, you put it out. You send it over to 
people. People in charge look at it. They can either implement 
or not implement. This is where I think the disconnect is. This 
is where I think it is where we step in and there is, people 
who are proposing another board between us and them, that came 
up at a hearing we had here recently, kind of a new oversight 
board especially dealing with health. Is it your interpretation 
of how this is supposed to work? This is where we are supposed 
to step in and make sure the implementation is happening?
    Ms. Halliday. I think that you are in the best position to 
make sure people are held accountable to implement those 
recommendations. Our internal operations has a follow up 
review. We track the actions to determine how long a 
recommendation is going to stay open, and is the department 
taking responsible actions to actually correct the problem. But 
in cases where you want quick action, yes, I think that is the 
role of the congressional committee.
    Mr. Walz. I agree. And I think in this case, I think we 
have got the right people. I think Deputy Secretary Gibson, 
yourself, this committee see ourselves as partners on fixing 
this. But at the end of the day I have been saying, and I think 
the committee has executed that, it is our responsibility by 
virtue of the public vote and confidence and statutorily in 
this office for us to do that. So I would argue today is what 
you are seeing especially on this specific case, the system is 
working as it is supposed to with vigorous push by us when we 
are in agreement. So I thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you very much, Mr. Walz. Mr. Coffman, 
you are recognized for five minutes.
    Mr. Coffman. Thank you, Mr. Chairman. I certainly welcome 
the Commander of the American Legion here today. Unlike Mr. 
Walz, my dues are paid up.
    I want to go over these relocation expenses just for a 
minute here. They totaled $274,019.12 for a Deputy Under 
Secretary of Field Operations to move from Washington, DC., to 
the Philadelphia area. And here is my issue with that. When I 
look at the relocation expenses that we pay our military, that 
the Department of Veterans Affairs is there to support and 
serve, that the highest one can receive I think is around 
$4,000. If we look at the pay scale for an O-10, which is a 
four-star flag officer, that individual would receive a 
relocation allowance of $4,514.29 and that is with dependents, 
an O-10 with dependents, that is four-star. I retired from the 
Marine Corps as a major. And so that would be the Commandant of 
the Marine Corps would receive that $4,514.29. They would 
receive mileage and they would obviously have their household 
goods moved, 14,000 pounds, the government would pay for that 
expense.
    I mean, that is incredible. How did this get so out of 
control, Ms. Halliday?
    Ms. Halliday. That is a pretty broad question.
    Mr. Coffman. Yes.
    Ms. Halliday. Without being able to lay the services that 
are supported through a military move against the private 
sector and against the VA, I cannot really answer that. I would 
think that the contracts are set up. We saw that the 
percentages paid were the percentages per the contracts. It is 
possible, I think you should pursue GSA----
    Mr. Coffman. Sure.
    Ms. Halliday [continuing]. And is there another option 
available that still would not inhibit senior executives moving 
from one position to another.
    Mr. Coffman. See, for our military personnel there is no 
compensation in terms of if you lose money on the sale of your 
home, there is no compensation for that. Yet for VA executives 
when the move is directed there is compensation for that. And 
what we can see is that in compensation, this level of 
compensation is so high that it incentivizes this culture of 
corruption where we have an example of a senior executive who 
is indented to move and forces somebody else out of their 
position just to move to get the compensation. And I just think 
that that is extraordinary.
    And I, you know, what is so upsetting about this I think is 
the fact that you do not have leadership at the top of the 
Veterans Administration that seems to be concerned about 
reforming this process. That it is always the whistleblower 
that comes up with this, or you as the Inspector General's 
Office, from the Inspector General's Office, that comes up with 
these issues. And that the VA is so slow to respond. And we had 
testimony today of individuals that were involved in the 
appointment wait time scandal that are still with, that were at 
the top of the scandal, that were complicit in the scandal by 
all observations, that are still on paid administrative leave 
and this issue happened last year.
    Can you, I know that right now you are focused on this 
issue. But what is the VA's policy on SES personnel that seem 
to be placed indefinitely on paid administrative leave?
    Ms. Halliday. I cannot answer that. I am sorry.
    Mr. Coffman. I just think that that is extraordinary. Well, 
I think, I commend you on your work. I certainly hope, I think 
that clearly the fact is that this was manipulated by virtue of 
forcing people out of their positions, not advertising the 
positions as open as they should have on a competitive basis, 
and then moving simply to get this extraordinary compensation 
that is so excessive. That clearly I think there is criminal 
wrongdoing in this and I hope it is pursued by the Justice 
Department. And with that, Mr. Chairman, I yield back.
    The Chairman. Thank you very much. Mr. Costello, you are 
recognized for five minutes.
    Mr. Costello. Thank you, Mr. Chairman. At the outset I 
would like to pick up on the comments that my colleagues Mr. 
Coffman and Ms. Titus made relating to some of the gaming of 
compensation within the VA. It almost seems like friends are 
rewarding friends rather than focusing on reforming the VA. And 
so I would just reiterate that I think that we really need to 
get to the bottom of how pervasive that may be in the VA. But 
that is something obviously I am sure all of us as members will 
discuss a little bit more.
    I also want to commend you for your continued work in 
providing accountability and shining a light on the abuses 
there. Typically this committee will have witnesses before them 
that we can ask questions who either were culpable or who can 
actually speak to how they are either reforming the challenges 
or what mistakes were made along the way. But today we do not 
have that, we just have you. So I do not, I am sure it is a 
little bit odd that you are here delivering bad news, we are as 
outraged as anyone, but we do not have anyone really to direct 
that outrage to.
    Let me start with a couple of really fact specific 
questions just for the record. First, with respect to 
Philadelphia and Ms. Rubens, as well as Ms. Graves and St. 
Paul, any evidence that family considerations were part of the 
reason why they wanted to relocate to those facilities?
    Ms. Halliday. You would have to ask them.
    Mr. Costello. All right. I just know that in the past I 
believe there was some testimony by Ms. Rubens indicating that 
family was nearby, but there was nothing, you were not able to 
unravel anything more to that?
    Ms. Halliday. No.
    Mr. Costello. Okay. During your review of Ms. Rubens' move 
to Philadelphia, were you able to determine when she placed the 
deposit on the construction of her new home in Philadelphia? 
And the reason I am asking that question is because I would 
like to know whether that was before or after her reassignment 
took place.
    Ms. Halliday. I will take that for the record. I am not 
sure if I have it or not.
    Mr. Costello. Okay. Next, and this is as much about me 
making sure that I describe this accurately when I leave this 
room as anything, you had testified essentially that the VBA 
basically had a process to circumvent the pay freeze and bonus 
freeze mechanisms that were in place, is that correct?
    Ms. Halliday. The practice they were using did exactly 
that.
    Mr. Costello. So it is fair to say that I believe the 
reason why we had pay freezes and no more bonuses was sort of 
the VA's attempt to say we are going to take responsibility 
here, the wrongdoing that has been uncovered we are going to 
get to the bottom to and we are not going to, in the process we 
are not going to receive bonuses or increased pay, and yet they 
basically just did it, right? They just did it anyway?
    Moving forward, you had said at this point in time you do 
not have recommendations on how to prevent that from happening 
moving forward. At some point in time will you issue 
recommendations to that effect? Or is this really just people 
doing the wrong thing and you can put all the rules in place, 
and if they are going to do what they are going to do and 
violate the rules, they are going to violate the rules?
    Ms. Halliday. Being in my occupation, you can always 
circumvent the controls if you want to. I hope to say this is 
the exception and not across the board. But the two we looked 
at we had problems.
    Mr. Costello. Okay. In your position, looking at the rules, 
not looking at these specific facts, but just looking at those 
rules, do they make sense? Would you look at them and say this 
is sufficient, there are sufficient enforcement mechanisms here 
to make sure that people do not get pay increases, people do 
not get bonuses? Or do they really have to go further? 
Because----
    Ms. Halliday. I think if people act with integrity, 
generally the rules were strong enough. But you are always 
going to have some that do not.
    Mr. Costello. That is a brilliant point. Because I asked 
myself, how many rules can we put in place? And if people are 
acting with integrity we may not have to put that many more 
rules back in place. But if they are not acting with integrity 
we are going to put all the rules in the world in there and it 
still will not matter. And that is the frustrating thing.
    And I will just add I am not going to get into the IG 
report on what is happening in Philly. But it really bothers me 
to hear that we have apparently made some progress in 
implementing some of the reforms at the Philadelphia VARO but 
the person who was there spearheading that has done what she 
has done. And so the veracity of which just further calls into 
question the credibility of the reforms that have been made. 
And it really is, I am flabbergasted by this report. Absolutely 
stunned. But I commend you for your ongoing work on behalf of 
the VA.
    Ms. Halliday. Thank you.
    Mr. Costello. Thank you. I yield back.
    The Chairman. Thank you very much, Mr. Costello. I would 
draw members' attention to page 18 of the report, where Ms. 
Rubens said that she grew up in Delaware and that the 
Philadelphia RO was close to home. She also testified in this 
committee that her mother was just a few miles down the road. 
And Ms. Graves, on page 22 it states that she stated that the 
move to St. Paul got her closer to her mother. So that answers 
those questions. Ms. Brown, do you have any closing comments?
    Ms. Brown. No, sir. I think that we are going to move 
forward in looking at the entire program through General 
Services and making sure that VA employees are not penalized. 
But if the program is not working overall then we need to look 
at it. Because we have 13 agencies that use this program. And 
perhaps we are bringing something to the attention that 
everybody needs to double down on and take a look at. So thank 
you very much, and thank you, Mr. Chairman, for having this 
hearing.
    The Chairman. Thank you very much. And Ms. Halliday, thank 
you for appearing before this committee. There are no further 
questions so you are excused.
    And I just want to summarize for the members this morning 
that the committee has voted to issue a subpoena to the five VA 
employees that we requested to appear before us today. They 
will now be required to testify at a hearing on November 2nd at 
7:30 p.m. and be prepared to respond to questions. As a 
reminder, I will also be requesting the presence of former 
Under Secretary for Benefits Allison Hickey at the hearing to 
testify in her role as a private citizen. I would ask unanimous 
consent that all members would have five legislative days with 
which to revise and extend their remarks and add any extraneous 
material. And, without objection, so ordered. And now this 
hearing is adjourned. Thank you.
    [Whereupon, at 11:41 a.m., the committee was adjourned.]

                                APPENDIX
                                
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
